UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

FILED
United States Court of Appeals
Tenth Circuit
July 30, 2020
Christopher M. Wolpert
Clerk of Court

SEBASTIAN L. ECCLESTON,
Petitioner - Appellant,

No. 20-2043
(D.C.No. 1:19-cv-00538-RB-CG)
(D. N.M.)

v.
UNITED STATES OF AMERICA,
Respondent - Appellee.

ORDER

Before BRISCOE, BALDOCK, and CARSON, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all 'of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

APPENDIX A

Appellate Case: 20-2043

Document: 010110369166

Date Filed: 07/01/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

July 1, 2020
Christopher M. Wolpert
Clerk of Court

SEBASTIAN L. ECCLESTON,
Petitioner - Appellant,
v.
UNITED STATES OF AMERICA,

No. 20-2043
(D.C.No. 1:19-CV-00538-RB-CG)
(D. N.M.)

Respondent - Appellee.
ORDER AND JUDGMENT*
Before BRISCOE, BALDOCK, and CARSON, Circuit Judges.

Petitioner Sebastian Eccleston, a federal prisoner appearing pro se, appeals from
the district court’s dismissal of his 28 U.S.C. § 2241 application for federal habeas relief.
Exercising jurisdiction pursuant to 28 U.S.C. §1291, we affirm the dismissal, albeit on
different grounds than the district court.

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of this
appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore ordered
submitted without oral argument. This order and judgment is not binding precedent,
except under the doctrines of law of the case, res judicata, and collateral estoppel. It may
be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1 and
10th Cir. R. 32.1.

Appellate Case: 20-2043

Document: 010110369166

_ Date Filed: 07/01/2020

Page: 2

I
On May 3, 1996, Eccleston pleaded guilty in the United States District Court for
the District of New Mexico to carjacking, in violation of 18 U.S.C. § 2119(1), carrying a
firearm during a crime of violence, in violation of 18 U.S.C. § 924(c), and violating the
Hobbs Act, in violation of 18 U.S.C. § 1951(a). All three of those convictions arose out
of crimes committed by Eccleston on December 15, 1994.
A few hours after pleading guilty in federal district court, Eccleston pleaded guilty
in New Mexico state court to first-degree murder and conspiracy-to commit first-degree
murder. Those two convictions arose out of crimes committed by Eccleston on
December 13, 1994.
The federal plea agreement was silent with respect to whether the federal and state
sentences imposed on Eccleston would run consecutively or concurrently. The state plea
agreement, in contrast, expressly provided that Eccleston’s state sentence would run
concurrently with any federal term.
Eccleston was sentenced in federal court on October 29, 1996. During that
hearing, Eccleston’s lawyer made no mention of concurrent sentencing or about where
Eccleston would serve his federal or state sentence. The federal district court imposed a
sentence of 417 months in prison, to be followed by three years of supervised release.
The sentence made no reference to any state sentence.
On November 7, 1996, Eccleston was sentenced in New Mexico state court to life
imprisonment, plus nine years. The sentence expressly stated that it would run
2

Appellate Case: 20-2043

Document: 010110369166

Date Filed: 07/01/2020

Page: 3

concurrently with Eccleston’s federal sentence. Eccleston remained in state custody and
began serving his state sentence.
Eccleston unsuccessfully appealed his federal sentence on the ground that, because
he was only convicted as an accomplice, the federal district court erred in imposing
sentences under § 924(c). See United States v. Eccleston, 132 F.3d 43 (10th Cir. 1997)
(unpublished table decision).
In May 2001, Eccleston filed a pro se motion for relief under 28 U.S.C. § 2255,
claiming that his counsel had been ineffective because he had induced Eccleston to plead
guilty based on what Eccleston alleged was a false and inaccurate promise that Eccleston
would serve his federal sentence in federal custody. The federal district court denied the
motion as time-barred. Eccleston did not appeal that ruling.
In March 2004, Mr. Eccleston filed a second § 2255 motion. The district court
construed the motion as seeking authorization to file a second-or-successive § 2255
motion and transferred it to this court. In October 2005, this court vacated the transfer
order and remanded to the district court with instructions to treat the motion as an
application for habeas relief under 28 U.S.C. § 2241. Thereafter, counsel entered an
appearance for Eccleston in federal district court and contended that he should be
committed to a federal rather than a state institution and that his prior service in a state
institution should be credited to his federal sentence.
Eccleston also filed a state habeas proceeding raising the concurrent sentence
issue. The state district attorney, in response, sought to resolve the issue by way of the
3

Appellate Case: 20-2043

Document: 010110369166

Date Filed: 07/01/2020

Page: 4

Federal Bureau of Prisons’ (BOP’s) Program Statement 5160.05 (the BOP Statement),
which establishes procedures for a state to request the BOP to designate a state institution
as the place to serve a federal sentence concurrently with a state sentence. In reliance on
the BOP Statement, the state district attorney asked the United States Attorney to consent
to a request by the state district attorney and Eccleston’s state counsel for the BOP to
designate the New Mexico Department of Corrections for the concurrent service of
Eccleston’s state and federal sentences and to give him retroactive credit on his federal
sentence for time served in state custody since the imposition of his federal sentence.
The United States Attorney’s Office drafted letters to the court and the BOP consenting
to the request and stating that Eccleston would terminate his state and federal habeas
proceedings if the BOP granted the request. Eccleston’s counsel submitted a response
stating that Eccleston preferred to seek judicial relief before relying on the administrative
procedures suggested by the state district attorney and the United States Attorney s
Office.
In April 2007, the federal district court overseeing'Eccleston’s § 2241 petition
dismissed as untimely Eccleston’s request to be placed in BOP custody. The court then
conducted a hearing on the concurrent sentence issue. Eccleston s counsel stated during
the hearing that Eccleston was prepared to execute the proposed agreement with the
United States Attorney’s Office and the BOP if the agreement was without prejudice to
his claim that he should serve his sentences in a federal facility. The court ultimately

4

Appellate Case: 20-2043

Document: 010110369166

Date Fiied: 07/01/2020

Page. 5

denied the concurrent sentence claim without prejudice, concluding that Eccleston had
not exhausted his available administrative remedies with the BOP.
Eccleston appealed to this court and we affirmed the district court’s ruling. In
doing so, we stated:
We hold that Mr. Eccleston’s § 2241 application fails to raise any viable
claim. Mr. Eccleston asserts that he is entitled to serve his sentence in the
custody of the BOP and that his federal and state sentences must be served
concurrently. Yet nothing in his federal sentence suggests that it is to be
served before or concurrently with any state sentence or that he is to serve
his sentences in federal custody. Although Mr. Eccleston s state sentence
provides for concurrent service of the federal and state sentences, the state
court’s decision cannot alter the federal-court sentence. As we stated in
Bloomgren v. Belaski, 948 F.2d 688, 691 (10th Cir. 1991), the
determination of whether a defendant’s “federal sentence would run
consecutively to his state sentence is a federal matter which cannot be
overridden by a state court provision for concurrent sentencing on a
subsequently-obtained state conviction.”
We also reject Mr. Eccleston’s contention that 18 U.S.C. § 3584(a) requires
concurrent service of his federal and state sentences. Section 3584(a)
states:
If multiple terms of imprisonment are imposed on a defendant
at the same time, or if a term of imprisonment is imposed on a
defendant who is already subject to an undischarged term of
imprisonment, the terms may run concurrently or
consecutively, except that the terms may not run
consecutively for an attempt and for another offense that was
the sole objective of the attempt. Multiple terms of
imprisonment imposed at the same time run concurrently
unless the court orders or the statute mandates that the terms
are to run consecutively. Multiple terms of imprisonment
imposed at different times run consecutively unless the court
orders that the terms are to run concurrently.
(emphasis added). Even if we construe this provision as applying when one
of the sentences was imposed by a state court, but see Abdul-Malik v.
5

Appellate Case: 20-2043

Document: 010110369166

Date Filed: 07/01/2020

Page: 6

Hawk-Sawyer, 403 F.3d 72, 75 (2d Cir. 2005) (§ 3584(a) does not apply
when state sentence imposed after imposition of federal sentence), the
presumption of concurrent sentences affects only sentences “imposed at the
same time,” which was not the case with respect to Mr. Eccleston’s federal
and state sentences. Because Mr. Eccleston’s federal sentence does not
“affirmatively order” concurrent service of his federal and state sentences,
it has not been executed unlawfully.
United States v. Eccleston, 521 F.3d 1249, 1253-54 (10th Cir. 2008).
At some point after this court’s 2008 decision, Eccleston was transferred to the
custody of the BOP and is currently housed in a federal correctional facility in New
Jersey. According to Eccleston, he received partial, but not full, credit against his federal
sentence for the time he served in state custody. ROA, Vol. 1 at 7.
Between 2009 and 2014, Eccleston continued to seek post-conviction relief in
federal district court and this court. All of those efforts were unsuccessful.
Of those unsuccessful efforts, we note one in particular. On January 30, 2012,
Eccleston filed with the district court a petition seeking relief pursuant to Federal Rule of
Criminal Procedure 36. Eccleston argued in that petition that because his federal
presentence report documented the provision in his state plea agreement that stated that
his state sentence would run concurrently with his federal sentence, and because the
federal district court adopted the factual findings in the presentence report when it
sentenced him, Rule 36 required the federal district court to correct its sentence and order
I

that he receive credit on his federal sentence for the time he served in state custody. The
district court denied Eccleston’s petition and Eccleston appealed to this court. This court
affirmed the district court’s denial. In doing so, this court stated, in pertinent part.
6

Appellate Case: 20-2043

Document: 010110369166

Date Filed: 07/01/2020

We are not persuaded ... that the district court’s adoption of the PSR
proves so much. The PSR did not say that Eccleston’s federal and state
sentences would run concurrently; it merely recited the fact that Eccleston s
state plea agreement included a provision that his state sentence would run
concurrently with his federal sentence. See Eccleston, 521 F.3d at 1251
(“The state plea agreement provided that Mr. Eccleston’s
state term of imprisonment would run concurrently with any federal
term.”). To say the district court adopted that recitation in the PSR doesn’t
say very much. Was the district court merely acknowledging the existence
of a provision in Eccleston’s state plea agreement or using that provision to
inform its decision on how to run Eccleston’s federal and state sentences?
The answers to those questions are not readily apparent to us. In other
words, we think the district court’s adoption of the PSR sheds little light on
whether the district court intended to run Eccleston’s sentences
concurrently or consecutively.
Two other facts, however, do shed considerable light on the subject and
persuade us that the district court intended Eccleston’s federal sentence to
run consecutively to his state sentence. First, the record contains a
quotation from a letter the district court wrote to the Bureau of Prisons
stating, “[i]t was my intent at sentencing that the federal sentence be served
consecutively to [Eccleston’s] state sentence and this remains my
position.” R. at 199. Second, when the district court sentenced Eccleston,
the law in this circuit was that multiple terms of imprisonment imposed at
different times were consecutive unless the district court ordered otherwise.
See United States v. Williams, 46 F.3d 57, 59 (10th Cir. 1995). Presumably
aware of Williams, the district court knew that its silence meant Eccleston’s
sentences would run consecutively.
Because the district court intended Eccleston’s federal sentence to run
consecutively to his state sentence, it understandably rejected Eccleston s
request to amend the written judgment to make those sentences concurrent.
In short, the district court denied Eccleston’s motion to amend because
there was no error or omission to amend. We don’t see anything wrong
with that.
United States v. Eccleston, 545 F. App’x 774, 776 (10th Cir. 2013).

7

Page: 7

, Appellate Case: 20-2043

Document: 010110369166

Date Filed: 07/01/2020

Page: 8

II
On June 11, 2019, Eccleston initiated these proceedings by filing a pro se pleading
entitled “Motion Seeking Equitable Relief.” ROA, Vol. 1 at 3. The district court’s
clerk’s office docketed the case as a § 2241 habeas proceeding. In a supporting
memorandum, Eccleston asserted that he was seeking relief pursuant to Federal Rules of
Civil Procedure 7(b) and 60(b)(6), “the inherent equitable power of this Court to remedy
injustice,” and “the equitable power conferred upon this Court under Section 11 of the
Judiciary Act of 1789.” Id. at 6. Eccleston alleged in the supporting memorandum that,
although he received partial credit against his federal sentence for the time he served in
state custody, he “still faces serving almost a decade of prison time in Federal jail even
though he served every day of this part of his Federal Sentence in a New Mexico
penitentiary.” Id. at 7. Eccleston sought entry of an order “credit[ing] against his Federal
Sentence all of the time [he] served in State Prison nunc pro tunc from the date (October
29, 1996) he was sentenced in Federal Court and explicitly committed to the custody of
the BOP and the U.S. Marshal.” Id. at 8.
On February 27, 2020, the district court issued a memorandum opinion and order
denying Eccleston’s motion. Id. at 76. The district court construed Eccleston’s motion
as “seeking] to vacate his guilty plea and/or correct his federal carjacking sentences
so that they run concurrent with his state murder sentence.” Id. at 78. The district court
in turn concluded that it could only modify Eccleston’s sentence or judgment under the
specific circumstances outlined by Congress, that Eccleston “ha[d] already exhausted his
8

; Appellate Case: 20-2043

Document: 010110369166

Date Filed: 07/01/2020

Page: 9

avenues for statutory relief by filing motions under every habeas statute .. . and 18
U.S.C. § 3582, and that, as a result, it “lack[ed] jurisdiction to ‘resentence [Eccleston]
based upon [any] desire to prevent a manifest injustice.’” Id. (quoting United States v.
Green, 405 F.3d 1180, 1184 (10th Cir. 2005)). The district court also concluded that it
was unable to afford Eccleston any relief under Federal Rule of Civil Procedure 60(b)(6).
Ultimately, the district court dismissed the case without prejudice. Eccleston now
appeals.
III
As a threshold matter, we construe the motion that Eccleston filed with the district
court as a § 2241 application for federal habeas relief.1 Although the district court
construed the motion as seeking to vacate Eccleston’s guilty plea or to correct his
sentence, we believe the motion is more properly construed as an application under
§ 2241. The motion effectively seeks to have the BOP credit Eccleston with all of the
time that he served on his state sentence prior to being taken into federal custody. As we
have explained, “[t]he principal purpose of a § 2241 application is to challenge the
execution, rather than the validity, of a federal prisoner’s sentence.” Hale v. Fox, 829
F.3d 1162, 1165 n.2 (10th Cir. 2016). This includes post-sentencing issues that “affect[]

1 The district court, in its order of dismissal, also purported to deny Eccleston a
certificate of appealability. A federal prisoner such as Eccleston, however, is not
required to obtain a certificate of appealability to seek review of a district court’s denial
of a habeas application under § 2241. Eldridge v. Berkebile, 791 F.3d 1239, 1241 (10th
Cir. 2015).
9

Appellate Case: 20-2043

Document: 010110369166

Date Filed: 07/01/2020

Page: 10

the fact or duration of the prisoner’s custody.” Id. Even where, as here, a prisoner styles
his sentence-execution challenge as something else, we construe it as a § 2241
application. See, e.g., United States v. Miller, 594 F.3d 1240, 1241—42 (10th Cir. 2010).
We in turn conclude that Eccleston is not entitled to federal habeas relief under
§ 2241. As this court concluded in its 2013 decision, the record of Eccleston’s federal
criminal proceedings makes clear that the district court that sentenced Eccleston in 1996
intended for his federal sentence to run consecutively to any state sentence he received.
That determination, in our view, effectively resolves Eccleston’s current claim for relief.
AFFIRMED.
Entered for the Court
Mary Beck Briscoe
Circuit Judge

10

S«1f»s6»BfeSi«6

m/umm vmwv

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
SEBASTIAN L. ECCLESTON,
Petitioner,
No. 19-cv-538 RB-CG

vs.
UNITED STATES OF AMERICA,
Respondent.

JUDGMENT OF DISMISSAL

Pursuant to Federal Rule of Civil Procedure 58(a), and consistent with the Memorandum
Opinion and Order filed contemporaneously herewith, the Court issues its sepaiate judgment
finally disposing of this case.
IT IS ORDERED, ADJUDGED, AND DECREED that this civil action is dismissed
without prejudice.

-_________ _—

ROBERT CfBRACK
SENIOR U.S. DISTRICT JUDGE

APPENDIX B

mmm-fMo *togA<m
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
SEBASTIAN L. ECCLESTON,
Petitioner,
No. 19-CV-538 RB-CG

vs.
UNITED STATES OF AMERICA,
Respondent.

MEMORANDUM OPINION AND ORDER
Before the Court is Sebastian Eccleston’s pro se Motion to Redress Manifest Injustice.
(Doc. 2.) In the same Motion, he also seeks leave to proceed informa pauperis. {Id. at 1.) Eccleston
has been challenging his federal caijacking sentence for the past 16 years. After failing to obtain
relief on direct appeal and under each habeas statute (28 U.S.C, §§ 2241,2254, and 2255), he now
asks the Court to use its equitable powers to correct his federal sentence. Having carefully reviewed
the Motion and Eccleston’s prior cases, the Court finds no relief is available.

\
N

I.

Background
In 1996, Eccleston pled guilty to caijacking in violation of 18 U.S.C. § 2119(1), using and

carrying a firearm during and in relation to a crime of violence in violation of 18 U.S.C. § 924(c),
interference with commerce by threat or violence against the victim in violation of 18 U.S.C. §
1951(a), and carrying a sawed-off shotgun in relation to interference with commerce in violation
of 18 U.S.C. 924(c). (CR Docs. 34; 88.)1 The Court (Hon. Leroy Hansen) sentenced Eccleston to
417 months of imprisonment. (CR Doc. 88.) Judgment on the conviction and sentence was entered

i All “CR Doc.” references are to the related criminal case, 95-cr-00014.

Case 1:19-cv-00538-RB-CG Documents Filed 04/07/2020 Page 9 of 32
Case 1:19-cv-00538-RB-CG documents Filed 02/27/2020 Page2 of 5

on November 12, 1996. (Id.) The Tenth Circuit Court of Appeals affirmed the conviction and
sentence on December 17,1997. (CR Doc. 92); United States v. Eccleston, 132 F.3d 43 (10th Cir.
1997).
On May 4, 2001, Eccleston filed his first motion to vacate or correct sentence pursuant to
28 U.S.C. § 2255. (CR Doc. 93); Eccleston v. United States, 01-CV-00500-LI-I-WD. Eccleston
argued his federal sentences should run concurrently with his state sentence for murder. The Court
dismissed his federal § 2255 motion because it was barred by the one-year statute of limitations.
(CR Doc. 96.) In 2003, Eccleston attempted to raise the same concurrent-sentence argument in a
28 U.S.C. § 2254 habeas petition. See Eccleston v. Master, 03-cv-00406 BB-DJS. However, that
proceeding was also dismissed as time-barred. (Docs. 19; 21 in 03-cv-00406 BB-DJS.)
Between 2009 and 2014, Eccleston filed at least five petitions in the Tenth Circuit seeking
permission to file a second or successive § 2255 motion. See In re Eccleston, No. 09-2022 (10th
Cir. Jan. 23, 2009); In Re Eccleston, No. 10-2231 (10th Cir. Oct. 26, 2010); In re: Sebastian L.
Eccleston, No. 10-2256 (10th Cir. Nov. 30, 2010); In re: Eccleston, No. 11-2215 (10th Cir. Nov.
1, 2011); In re Eccleston, No. 14-2092 (10th Cir. June 5, 2014). Some motions were construed
under 28 U.S.C. § 2241, see, e.g., No. 09-2022, but regardless of the construction, each motion was
denied. Id. Eccleston also filed various motions in this Court under § 2255 and 18 U.S.C. § 3582.
(CR Docs. 212; 218; 252.) To date, the Court has refused to alter his sentence. (CR Doc. 255.)
Eccleston filed the instant Motion on June 11,2019. (Doc. 1.) He acknowledges his prior §
2255 proceedings were unsuccessful and seeks equitable relief from his federal sentence. (Doc. 2
at 3-4,13.) The Court construes the Motion under 28 U.S.C. § 2241, which is die catch-all habeas

2

c8su

PiS8GP6couc«?

statute for alleged wrongs that are incapable of redress under other provisions of the law.2 See
Carcivalho v. Pugh, 111 F.3d 1177, 1178 (10th Cir. 1999). The Court also grants Eccleston’s
request to proceed in forma pauperis and waives the filing fee, and the matter is ready for-initial
review.
II.

Discussion
Eccleston asks the Court to use its “equitable powers to undo ... manifest injustice.” (Doc.

2 at 8.) Specifically, he seeks to vacate his guilty plea and/or correct his federal caijacking sentences
so that they run concurrent with his state murder sentence. Eccleston’s request fails as a matter of
law. District courts do “not have inherent power to resentence defendants” or correct criminal
judgments. United States v. Blackwell, 81 F,3d 945, 949 (10th Cir. 1996), The Court can only
“modify a Defendant’s sentence [or judgment] ... in specified instances where Congress has
expressly granted the court jurisdiction to do so.” Id. Eccleston has already exhausted his avenues
for statutory relief by filing motions under every habeas statute (28 U.S.C. § 2241,2254, and 2255)
and 18 U.S.C. § 3582.3 Accordingly, this Court lacks jurisdiction to “resentence [Eccleston] based
upon [any] desire to prevent a manifest injustice." United States v. Green, 405 F.3d 1180, 1184
(10th Cir. 2005).
-Eccleston-also appears to seek relief from all prior rulings under Federal Rule of Civil

2 The construction of Eccleston’s petition is academic and does not change the outcome of this case. As
discussed below, the Court cannot run his sentences concurrently under any theory or statute.
3 Although Eccleston exhausted every statutory avenue to argue that his state and federal sentence should
run concurrently, he recently had some success with a different argument. After Eccleston filed the instant
proceeding, the Tenth Circuit granted permission to pursue successive § 2255 relief from his firearm
conviction under United States v. Davis, 139 S. Ct. 2319 (2019). (See Docs. 299; 304 in 95-cr-0014.)
Eccleston filed a counseled Davis motion on December 20, 2019, which is still pending. This ruling has no
impact on that proceeding.
3

Case 1:19-cv-00538-RB-CG Document 5 Filed 04/07/2020 Page 10 of 32
Case 1:19-CV-00538-RB-CG Document 3 Filed 02/27/2020 Page 4 of 5

Procedure 60(b)(6). (Doc. 2 at 17.) Rule 60(b)(6) contains a catchall clause allowing Courts to
correct prior civil judgments (including habeas rulings) for “any . . . reason that justifies relief.
However, Rule 60(b)(6) relief is “extraordinary,” “difficult to attain,” and only “appropriate . . .
when it offends justice to deny such relief.” Zurich N. Am. v. Matrix Serv., Inc., 426 F,3d 1281,
1289,1293 (10th Cir. 2005). Setting aside the fact that this Court cannot vacate multiple rulings by
the Tenth Circuit, there is clearly no injustice in this case. Eccleston is convinced that his state and
federal sentences should have run concurrently based on his own subjective belief at the time of
the plea. However, as the Tenth Circuit repeatedly explained: “the federal government did not
promise, either in the draft of the negotiated plea agreement or in the final plea agreement, that
... Eccleston’s federal sentence would run concurrently with the state sentence, nor did it promise
where he would serve his sentences.” Eccleston v. United States, 08-cv-1079 LH-LAM (Doc. 11)
(quoting United States v. Eccleston, 521 F.3d 1249, 1251 (10th Cir), cert, denied, 129 S. Ct. 430
(2008)). Although his “state sentence provides for concurrent service of the federal and state
sentences, the state court’s decision cannot alter the federal-court sentence, which runs
consecutively to, not concurrently with, the state sentence.” Id. Rule 60(b)(6) relief is therefore not
available in this case.
For these reasons, the Court will dismiss the Motion and this civil case without prejudice.
To the extent necessary, the Court will also deny a certificate of appealability under Habeas Coipus
Rule 11, as this Order is not reasonably debatable. SeeSlackv. McDaniel, 529 U.S. 473,484 (2000)
(certificate of appealability can only issue in a habeas proceeding where petitioner “demonstrates
that reasonable jurists would find the district court’s assessment... debatable or wrong”).
IT IS ORDERED that Eccleston's request to proceed in forma pauperis is GRANTED;
4

c6iy

^8gdB8«?3f

% 8f I2

and any filing fee is WAIVED.
IT IS FURTHER ORDERED that Iiccleston’s Motion to Redress Manifest Injustice (Doc.
1) is DISMISSED WITHOUT PREJUDICE; a certificate of appealability is denied; and the
Court will enter a separate judgment resolving the civil case.

i

Septus?

ROBERT (VbRACK
SENIOR U.S. DISTRICT JUDGE

5

Updated, July 30, 2014
Clemency Project 2014 Training Memo:
The Interaction of Federal and State Sentences
By
JaneAnne Murray
Introduction
Some clemency applicants may have served or face state prison time that
has a bearing on the length and computation of their'federal sentence.2 Indeed,
because the bulk of clemency applicants will be low-level drug offenders, this
issue is likely to exist in a significant number of cases, because these offenders
often get arrested by state authorities first, and are only prosecuted in federal court
to secure their cooperation.
The state/federal sentencing interaction can arise in a number of ways.
For example, the federal judge may have adjusted downwards at sentencing in
order to reflect time the defendant had already served in a state facility. The
federal or state judge may have ordered a sentence to run concurrent with one in
the other jurisdiction. The Bureau of Prisons (the “BOP”) may have designated
the state facility for partial service of the federal sentence in order to effectuate a
judge’s decision on concurrency. Or one of the above did not happen because a
judge or BOP official misapplied or misunderstood the relevant rules, or the rules
were clarified or changed after the inmate was sentenced.
This memo proceeds in four parts. Part I explains how to determine if
your case presents a potential state/federal interaction issue. Part II outlines the
basic rules and precedents relating to the imposition and computation of federal
sentences when the inmate has served or faces prison time in a state facility. Part
III applies these rules to the clemency eligibility requirement that the inmate
“have served at least 10 years of their sentence.” Part IV applies these rules to the
clemency eligibility requirement that the inmate “by operation of law, likely
would have received a substantially lower sentence if convicted of the same
offense today.”
This is a complex area that often frustrates those who encounter it. It
certainly produces many disparities and much arbitrary unfairness, even when the
rules are applied properly. It can, however, be mastered with a careful step-by-"
step analysis, and methodical cross-checking of your client’s sentencing and
custodial history with the issues raised in this memo.
1 Principal, Murray Law LLC, Minneapolis (im@.mlawllc.com~). Please feel free to email the
author with questions and suggestions.
2 This memo focuses on state custodial time, which is the most common type of non-federal time.
The issues addressed in this memo would also impact an inmate who had served time in tribal or
foreign custody.

APPENDIX C

Part I - Does Your Case Present this Issue?
Below are the key identifiers of time spent or faced in state custody that
have a bearing on the computation of the federal sentence. If one of these
identifiers exists, dig deeper to see if it implicates the issues addressed in this
memo.
•

Writ of Habeas Corpus: If the inmate was first arrested by state authorities
and is then transferred into federal custody to face federal charges, you
will typically see a reference to a writ in their federal docket sheet.
• 072I2UII

. 2 ■ MOTION to seal Indictment and related documents by VSA as to
!
• (KfTs) Olnterctl: 09:09 20! I)
______
3 '(JKDBIl -muititip 2 Motion to Seal Indictment and related document as to
{[>. Signed by Magistrate Judge Thomas G. Wilson on 7 21 2011. (Ri;K)

107 21 2UI l

cluttered: OlJ (t> 2<H I)

;w fW2nil

. (RFiO filtered.

' 5 ' Niai'ION to uumj.'iI ImlielmcM hv USA as to
;
:t>j.-w2(nii

<’ ! ORDF.R granting 3 Motion to l fiscal Indictment a* to
(1). Signed by
, Magistrate. Judge Anthony 1.1. Porcelli on D 92011, (Rl-K) (Bitcred: (ft Q'> 2011 j
_

rpiXKlRMATIOXTO ESTABIJSII PRIOR CONVICTION as to
'

:

;(*>'29 2011

• S - DITAINHR Acainst Sentenced Stale Prisoner Based on Federal Anesi Warrant as to
(CD) fJyilered: W ,V)'20l 1)

i! K!'04 2011
’

i

;
'

101)5 2011

j (Palermo. Tlionu*) sHnlurcd: 0‘s 0*)'20l I)

-2 ; MOTION for Writ of Habeas Corpus ad proseciuendum'by.USA as to
. {Palermo, TiKmias) Motions referred to Magistrate Judge Anthony II
' Porcati. (haltered- 1«> 04'2(Jl 1)
fur 10 27 It.

! jo .' WRIT of halwas corpus ad prosequendum issued as to
•

!

Kt

l,.% nlKrtn^i 1-

•*

V..1 f.xr

The writ should also be referenced in their presentence report.
•

References to Concurrent/Consecutive Sentencing: If the inmate was
serving or facing a state sentence, it is most likely that the state sentence is
referenced (perhaps in addressing a request for concurrent/consecutive
sentencing) in the sentencing submissions, in the transcript of the .
sentencing hearing, and in the judgment.

•

Reference to U.S.S.G. § 5G1.3: Those same documents may contain a
reference to U.S.S.G. § 5G1.3, the sentencing guideline that deals with
concurrent and consecutive sentencing, which is typically invoked when
the inmate is facing dual sentences in state and federal jurisdictions.

•

Proximate Period In State Custody: The inmate may have had a period of
custody in a state system just prior to his encounter with the federal
authorities - which can be determined from the criminal history section of
his presentence report or from his rap sheet (his NCIC report).

•

Related Period in State Custody: The inmate may have been convicted and
served time at the state level for an offense that was related to the federal
one (i.e. client did time for a street level drug sale, and his federal case is a
larger conspiracy, spanning the same time and conduct). This can be
determined by reviewing the descriptions of any state convictions in the
presentence report, just prior to the federal case.
2

Part II - A Primer on the Interaction of State and Federal Sentences
The issue of crediting prior custodial time to a federal sentence is a
complex and evolving one. In fact, as the BOP notes on its website, crediting
time spent in state custody is “probably the single most confusing and least
understood sentencing issue in the Federal system. 3 Below, I outline the key
rules and precedents in this area, including, where relevant, how these rules have
changed such that many clemency applicants might, through their service of time
in state custody or their time owed to a state jurisdiction, have satisfied either the
“10-years-served” criterion or the “lower-if-sentenced-today” criterion.
A.

Commencement of the Sentence - Primary Custodian

At the heart of the complexities arising from the interaction of state and
federal custody is the issue of setting the date of the commencement of the federal
sentence. Indeed, the first step in sentence computation, which is the province of
the BOP,4 is to determine when the federal sentence commenced.
A federal sentence commences when the defendant is received by the
Attorney General of the United States for service of his federal sentence. See 18
U.S.C. § 3585(a) (“A sentence to a term of imprisonment commences on the date
the defendant is received in custody awaiting transportation to, or arrives
voluntarily to commence service of sentence at, the official detention facility at
which the sentence is to be served.”). Note that the date of the commencement of
the sentence is not necessarily the same as the date when the inmate starts
accruing time towards service of the federal sentence. As addressed in the next
section, once the date of the commencement is determined, the BOP will then
address the issue of crediting prior custody, including time spent in pretrial
detention.
A federal sentence cannot commence, nor time run on the federal
sentence, when a federal defendant is produced for prosecution in federal court by
a writ of habeas corpus ad prosequendum from state custody. See United States
v. Fermin, 252 F.3d 102, 108 n. 10 (2d Cir.2001) (“[A] defendant held at a
federal detention facility is not ‘in custody’ for the purposes of § 3585(a) when he
is produced through a writ of habeas corpus ad prosequendum"). In that
situation, the state authorities are the primary custodian and retain primary
jurisdiction over the prisoner; federal custody does not commence until state
authorities relinquish the prisoner, either because he has been bailed or released,
3 Henry J. Sadowski, Interaction ofFederal and State Sentences When the Federal Defendant is
Under Slate Primary Jurisdiction, at 1 (July 7, 2011), available at
bttn://www.bop.gov/resources/pdfs/ifss.t>df: see also Henry J. Sadowski, Federal Sentence
Computation Applied to The Interaction ofFederal And State Sentences, The Champion, April
2014 (containing a series of helpful graphs to illustrate the computation process).
4 United States v. Wilson, 503 U.S. 329, 336 (1992).
3

his state charges dismissed, or his state sentence completed. When a prisoner is
borrowed from the primary custodian on a writ, principles of comity require the
return of the prisoner to the primary custodian when the writ has been satisfied
(typically, in this context, this means the federal prosecution has been completed).
Thus, when a federal defendant is first arrested, prosecuted, and held by
state authorities, his/her primary custodian is the state authority. When
transferred by writ to federal court, he/she does not accrue time on any potential
federal offense until the state authority has released its hold. The imposition of a
federal sentence does not alter this analysis. It merely triggers the defendant’s
return to physical state custody. Once the state hold has been satisfied (either by
dismissal of the state case or service of the state sentence), the defendant isreturned to federal custody to commence the federal sentence.
B.

Awarding Prior Custody Credit

Once the date of commencement of the federal sentence has been
determined, the BOP awards credit for prior custody (state or federal) that has not
been credited to another sentence. See 18 U.S.C. § 3585. Where federal
jurisdiction is primary - that is, the inmate was first arrested by federal authorities
and detained by federal court order - this is typically a straightforward
calculation. An inmate under primary federal custody receives credit for time
spent in pretrial detention, and continues to receive credit towards any federal
sentence even if “borrowed” by state authorities to answer state charges. Where,
however, state jurisdiction is primary — that is, the state is the primary custodian
and the inmate was merely “borrowed” from state custody on a writ to answer the
federal charges - the inmate does not earn any credit towards the federal sentence
until the state authorities relinquish the prisoner on satisfaction of the state
obligation.
The manner in which the BOP can retroactively credit state custodial time
is by designating the state correctional institution for service of the federal
sentence. See 18 U.S.C. § 3621 (vesting in the BOP the power to designate the
place of confinement, and setting forth factors to be considered in exercising this
authority). This designation causes the sentence to begin. It can be made nunc
pro tunc only as far back as the date of the federal sentencing, since the earliest
date a federal sentence can commence is the date it is imposed. See United States
v. Labeille-Soto, 163 F.3d 93, 98 (2d Cir.1998) (a federal sentence cannot begin to
run earlier than on the date on which it is imposed).
Notably, as the Supreme Court noted in Setser v. United States, the BOP
“sometimes makes this designation while the prisoner is in state custody and
sometimes makes a nunc pro tunc designation once the prisoner enters federal
custody.” See id., 132 S.Ct. 1463, 1468 n. 1 (2012).

4

federal sentence, this punishment can be imposed consecutively to the state
sentence, or it can be effectively aggregated with the state sentence by imposing it
concurrently with the state sentence.
Example: John is arrested by state authorities for burglary in a
store and is sentenced to five years. He is transferred on a writ to
- federal court to answer federal drug trafficking charges. He pleads
guilty in federal court and faces a guideline sentence of 10 years.
The federal judge believes an incremental sentence of 10 years is
appropriate for the federal offense. Taking into account the factors
set forth in § 5G1.3, cmt. n. 3(A), the federal judge can either
impose a sentence of 15 years, run concurrently with the state
sentence, with a departure to reflect time already served on the
state sentence, or a consecutive sentence of 10 years.
As a practical matter, in both alternatives, the inmate’s time in state
custody is taken into account in fashioning the federal sentence.
3;

?ve-Setser Federal Court Silent on Concurrency

In some cases where an inmate faces dual federal and state prosecutions,
the federal court imposes its sentence before the state court imposes sentence, and
does so without specifying whether the federal sentence is to be served
consecutively or concurrently with the yet-to-be-imposed state sentence. When
the state court later imposes sentence, it may explicitly order its sentence to be
served concurrently with the federal sentence already imposed. In this situation,
the BOP applies the factors set forth in 18 U.SC. § 3621(b) relating to the
determination of place of confinement, solicits the view of the federal judge on
concurrency, and exercises its discretion to treat the sentences as concurrent or
consecutive.6
Example: Fred is arrested by state authorities on drug charges. He
pleads guilty but prior to sentencing in state court, is transferred to
federal court on a writ to answer federal drug trafficking charges.
He pleads guilty in federal court and is sentenced to 15 years. The .
federal court is silent on the issue of whether the federal sentence
should be consecutive or concurrent to his as-yet-unimposed state
sentence. Fred is returned to state custody where he is sentenced
6 See BOP Program Statement 5160.05 (January 16, 2003) (BOP will also consider “an inmate's
request for pre-sentence credit toward a federal sentence for time spent in service of a state
sentence as a request for a nunc pro tunc designation,” and requires the BOP to ask the federal
sentencing court if it has any objections to such designation); see also Government Accountability
Office, Bureau of Prisons: Eligibility and Capacity Impact Use of Flexibilities to Reduce Inmates’
Time in Prison (Feb. 2012) at 28.(noting that “of the 538 cases BOP reviewed in fiscal year 2011,
99 requests to serve sentences concurrently were granted, for a total of about 118,700 days of
sentence credit, 386 were not granted, and 53 were still under review as of the end of fiscal year
2011”).

7

to 10 years. The state court orders that the state sentence be served ,
concurrently with Fred’s federal sentence. Upon completion of the
state sentence approximately 8 years later, Fred is transported to
federal custody to complete his federal sentence. Fred petitions the
BOP for nunc pro time designation of the state facility as the place
of confinement for Fred’s federal sentence. The BOP solicits the
view of Fred’s federal sentencing judge, who does not respond. In
the absence of a clear statement of intent in favor of concurrency
from the federal judge, and applying the factors set forth in 18
U.S.C. § 3621(b) the BOP denies the.inmate’s petition, thus de
facto rendering the state and federal sentences consecutive.7
4.

Booker and § 5G1.3fa) Consecutive Sentencing

§ 5G1.3 includes a provision for mandatory consecutive sentencing:

I

If the instant offense was committed while the defendant was
serving a tenn of imprisonment (including work release, furlough,
or escape status) or after sentencing for, but before commencing
service of, such term of imprisonment, the sentence for the instant
offense shall be imposed to run consecutively to the undischarged
term of imprisonment.

See § 5G1.3(a). The requirements in § 5G1.3(a) are not statutory mandates,
however, and since the Supreme Court’s mling in United States v. Booker, 543
U.S. 220 (2005), the directives themselves are just advisory. While the federal
sentencing judge must now consider these guideline provisions in fashioning the
appropriate federal sentence, he/she is not required to follow them. See United
States v. Rainer, 314 Fed.Appx. 846, 847 (6th Cir. 2009) (“[notwithstanding the
seemingly mandatory language of U.S.S.G. § 5G1.3(a), we have recognized that
the district court has discretion to impose consecutive or concurrent sentences
pursuant to 18 U.S.C. § 3584 and U.S.S.G. § 5G1.3, upon consideration of the
factors listed in 18 U.S.C. § 3553(a) and the applicable guidelines and policy
statements in effect at the time of sentencing”).
D.

Impact of Setser v. United States

In Setser v. United States, 132 S.Ct. 1463 (2013), the Supreme Court,
emphasizing principles of comity and “our tradition for judicial sentencing,”
resolved a circuit court split and clarified that a federal judge may order a federal
sentence to be concurrent to a yet-to-be-imposed state sentence. Id. at 1471. The
Sentencing Commission has partially incorporated this ruling into a new
7 Cf. Galloway v. Warden ofF.C.I. Ft. Dix, 385 Fed.Appx. 59 (3d Cir. 2010) (BOP's denial of
nunc pro tunc designation request from inmate where federal court was silent on issue of
concurrency at sentencing and did not respond to BOP’s solicitation of its view on inmate’s
application, was not arbitrary and capricious).

8

Guideline version of U.S.S.G. § 5G1.3, to take effect November 1, 2014,
requiring that a federal sentence be imposed concurrently with an anticipated state
sentence where the state offense is relevant conduct to the federal offense. See /
U.S.S.G. § 5G1.3(c) (effective November 2014). Where the anticipated state (r
sentence does not arise from relevant conduct, Setser grants the federal court
discretion to impose its sentence concurrently with the as-yet-unimposed state
sentence. Id. 132 S.Ct. at 1471.
In a number of cases prt-Setser, courts did not order concurrency because
prevailing precedent did not empower them to do so. See, e.g., United States v.
Zorn, 487 Fed.Appx. 289 (6th Cir. 2012) (remanding after Setser for district court
to use its discretion to order its sentence consecutive or concurrent to a laterimposed state sentence because the court had stated it “lacked authority to make
Zorn’s federal sentence run ‘concurrently with a state sentence that has not been
imposed’”). In addition, there are cases pre-Setser where the court did not order
its sentence concurrent with an anticipated state sentence, but under the new
§ 5G1.3 amendment in November would not just be authorized to order
concurrency, it would be required under the Sentencing Guidelines to so order,
because the state sentence was for relevant conduct to the federal offense.
As noted above, in the absence of a concurrency order or recommendation
by the federal judge or a determination by the BOP applying the factors set forth
in 18 U.S.C. § 3621(b) that concurrency is appropriate, the BOP created de facto
consecutive sentences pre-Setser where state custody was primary and the state
sentence was imposed after the federal one. In Setser, however, the Court
indicated it would be disrespectful of the state’s sovereignty for the BOP to
decide after the state court has expressly decided to run its sentence concurrently
and in the absence of contrary intent on the part of the federal judge, not to credit
the state time served against the federal sentence. Id. 132 S.Ct. at 1471.
Thus, there will be clemency applicants whose time in state custody was
not credited to the federal sentence, but would be credited today under Setser and
the 2014 amended version of § 5G1.3. Moreover, their entitlement to this credit
would mean they face a lower sentence if sentenced today.
E.

Good Time Credits On Adjusted Sentences

Courts have interpreted the “full sentence” after a § 5G1.3 adjustment to
consist of the actual sentence imposed, plus the adjustment. Thus, where a federal
court adjusts below a mandatory minimum sentence of 10 years, and imposes, for
example, a 7-year sentence in order to achieve concurrency with a state sentence,
this sentence does not violate the mandatory minimum statute, because courts
have held that the full sentence for the purposes of the mandatory minimum

9

included the adjustment to achieve the fully concurrent sentence (in our example,
the additional 3 years reflected in the adjustment).8
Despite this well-established interpretation of § 5G1.3, the BOP will only
award good time credit on the post-adjustment portion of the sentence, not the full
sentence. Thus, if a 10-year mandatory minimum sentence is adjusted by three
years to account for three years spent in state custody serving a concurrent state
sentence, BOP will award good time credit only on seven years of the sentence.
To date the courts have denied relief.10 The silver lining from the so far
unsuccessful BOP litigation is a useful government concession: The government
in both Lopez and Schleining asserted that the sentencing court has the discretion
to grant a variance based on the good time credit not awarded.11 And it makes
powerful sense to grant this variance because, without the credit, the court creates
unwarranted sentencing disparity based on the irrational factor of the order of
custody. Without the variance for good time credits, identically situated
defendants will serve different time in custody for the same federal punishment.

8 See, e.g., United States v. Ross, 219 F.3d 592, 594-95 (7th Cir.2000); United States v. Rivers, 329
F.3d 119, 122 (2d Cir.2003); United States v. Kiefer, 20 F.3d 874 (8th Cir.1994).
9 The purported reason - good time credit can only be awarded for time served in BOP custody is undercut by the BOP’s policy of routinely awarding good time for presentence time spent in
non-BOP custody, and for the time spent serving the concurrent portion of the federal sentence in
the state institution.
10 See, e.g., Lopez v. Terrell, 654 F.3d 176 (2d Cir. 2011); Schleining v. Thomas, 642 F.3d 1242
(9th Cir. 2011).
11 Brief of Respondent, Lopez, No.10-2079, 2011 WL 680803, *8 (“A defendant may request a
variance based on good behavior while serving a state sentence for related criminal conduct, a
mechanism consistent with the statutory goal of making good conduct time retrospective rather
than prospective.”); Brief of Respondent, Schleining, No. 10-35792,2011 WL 991513, *30 (“A
defendant whose federal sentencing has been long delayed may seek a variance based on the lost
opportunity for good conduct time credit, which the sentencing court has the discretion to grant.”).

10

Part III - State/Federal Interaction and “10-Years-Served” Requirement
In this section, I lay out the key scenarios under which a federal inmate
whose time in state custody should count towards the “10-years-served” requirement of clemency eligibility.
A. Documents Required
Docket Sheet
BOP sentence computation data
Inmate’s NCIC report (rap sheet)
Presentence Report
Transcript of federal sentencing hearing
Judgment and SOR in federal case
State Judgment
Transcript in state sentencing proceeding
Counting State Time Towards “10-Years Served” Requirement

B.

An inmate’s service of time in state custody can be included in the
analysis of the “10-years-served” component of clemency eligibility in several
ways. Note that more than one of the scenarios outlined below could apply to an
individual inmate.
State Custody Was Primary and Federal Judge Ordered Federal
Sentence Concurrent with State Sentence

1.

Where the imnate was in primary state custody at the time of his federal
sentence - that is, he was before the federal court on writ of habeas corpus ad .
prosequendum - he does not accrue time on the federal case until the state
relinquishes its custody or the federal court imposes a concurrent sentence. As
noted in our primer, the earliest the court can order concurrency to be effective
(and the earliest the BOP can designate the state facility for service of the federal
sentence) is the date of the federal sentencing. (Concurrency for time served prior
to the federal sentence is discussed infra in the context of 5G1.3 adjustments.)
Accordingly, if the inmate was in primary state custody when sentenced in
the federal case (a fact that could be indicated by reference to a writ on the docket
sheet, or statements made during the sentencing proceeding or in the sentencing
judgment), proceed as follows:
•

Determine from the sentencing transcript and/or judgment if the
federal judge ordered the federal sentence concurrent to the state
sentence.

11

•

If so, determine from the BOP sentence computation data if the
BOP designated the state facility for service of the federal sentence
nunc pro tunc to the date of federal sentence.12

•

All time in state custody served after the imposition of a
concurrent federal sentence counts towards the federal sentence,
and, thus, towards the 10-years-served requirement. [See below
for a discussion of whether the state time prior to the imposition of
the federal sentence should be credited to the federal sentence
under § 5G1.3.]

2.

State Custody Was Primary and Federal Judge Would Likely Have
Ordered Federal Sentence Concurrent with State Sentence Under
Setser

As noted in our primer, in some cases involving an inmate in primary state
custody at the time of the federal sentence, the state sentence had not yet been
imposed, and, in imposing the federal sentence, the federal judge was silent on the
issue of concurrency or deferred the issue to the state judge. Since the Supreme
Court’s holding in Setser, however, it is now clear that the federal judge has the
power to order the federal sentence concurrent to a not-yet-imposed state
sentence.
In such cases, proceed as follows:
•

Detennine from the sentencing transcript and/or judgment if the
federal judge-believed he/she did not have the authority to order
the federal sentence concurrent to the anticipated state sentence.

•

If the federal judge was silent on the issue of concurrency, analyze
the sentencing transcript for indicia that, with the benefit of Setser,
the federal judge would have ordered the federal sentence
concurrent to the anticipated state sentence.13

12 Note that this process will not necessarily be a straightforward one, as the sentencing data
provided by the Bureau of Prisons will be aggregated - providing a single figure for time served
credited to the inmate’s federal sentence, including pre-trial detention, time served in the inmate’s
designated BOP facility(ies); concurrent time served in a state facility, and nunc pro tunc time
served in a state facility credited towards their federal sentence. Thus, clemency lawyers must (a)
. first calculate how much state time should be (or should have been) credited to the inmate’s
federal sentence, and then (b) compare this calculation to the BOP’s computation. If the latter is
lower than the former, there is likely a failure properly to credit the inmate’s state custodial time.
Refer to the memo on records. In addition, CP2014 will provide legal experts to assist you in this
analysis, and clemency lawyer volunteers are encouraged to reach out to them. Note also that in a
case where an inmate has a state/federal interaction, if his SENTRY PSCD (sentencing
information record from the BOP) indicates that his sentence began on the same date it was
imposed, this likely reflects a nunc pro tunc designation by the BOP.
13 For example, the federal judge sentenced the inmate to the lowest possible sentence available, or
granted the inmate a substantial downward departure from the applicable guideline range.

12

•

3.

If the above analysis yields evidence that the federal judge would
have ordered concurrency under Setser, the clemency application
should contain an argument that all time in state custody served
after the imposition of the federal sentence should count towards
the federal sentence, and, thus, towards the 10-years-served
requirement). [See below for a discussion of whether the state
time prior to the imposition of the federal sentence should be
credited to the federal sentence under § 5G1.3.]
State Custody Was Primary and State Judge Ordered State
Sentence Concurrent with Federal Sentence

In some cases where state custody was primary, the federal judge was
silent on concurrency but the state judge ordered the state sentence concurrent
with the federal sentence. In these cases, and in response to a request from the
inmate for nunc pro tunc designation, the BOP will solicit the view of the federal
judge on concurrency and if there is no response, will typically default to treating
the state and federal sentences as consecutive. As noted in our primer, in Setser,
however, the Court indicated it would be disrespectful of the state’s sovereignty
for the BOP to decide after the state court has expressly decided to run its •
sentence concurrently and in the absence of contrary intent on the part of the
federal judge, not to credit the state time served against the federal sentence. Id.
132 S.Ct. at 1471.
Accordingly, in cases where the state court expressly ordered that its
sentence run concurrent to the federal one, and the federal court was silent on the
issue of concurrency, the clemency application should contain the argument that
under Setser, the state time is properly credited towards the federal sentence, and,
thus, towards the 10-years-served requirement.
4.

State Custody Was Primary and Federal Judge Would Likely Not
Have Followed Guideline Mandate of Consecutive Sentencing
Under Booker

As noted in our primer, U.S.S.G. § 5G1.3(a) mandates consecutive
sentencing in cases where the defendant committed the offense while serving, or
just before commencing, another sentence. This mandate is now advisory. See
Rainer, 314 Fed.Appx. at 847. Thus, if the defendant was sentenced prior to
Booker and was subject to consecutive sentencing under § 5G1.3(a), analyze the
sentencing transcript and/or judgment for evidence that with the benefit of
Booker, the sentencing judge would have ordered the federal sentence concurrent
or partially concurrent to the state sentence. The clemency application should
then contain an argument that time in state custody served after the imposition of
the federal sentence should count towards the federal sentence, and, thus, towards
the 10-years-served requirement.

13

5.

Inmate Served State Time that Should be Credited to the Federal
Sentence Under 18 U.S.C. § 3585(b)

What if the inmate’s state time prior to his appearance in federal court on
the federal charges was never credited to any state sentence (i.e. the state charges
were dismissed)? 18 U.S.C. § 3585(b) mandates that an inmate “shall” receive
credit against his federal sentence for time spent in “official detention” that is not
credited to any other sentence, and is either “as a result of the offense for which
the sentence was imposed” or “as a result of any other charge for which the
defendant was arrested after the commission of the offense for which the sentence
was imposed.” Id.
Analyze the inmate’s NCIC report (rap sheet), presentence report and
BOP sentencing computation data to determine if the inmate’s state time was
credited to another sentence, or was credited by the BOP towards service of the
federal sentence. If the state time is unaccounted for, the clemency application
should contain an argument that this time is properly credited towards the federal
sentence, and, thus, towards the 10-years-served requirement.14 It might even be
faster and more efficient to request the BOP to credit this time via the
administrative remedy process, which would take about two months.
6.

Inmate Served State Time that Should be Credited to the Federal
Sentence Under U.S.S.G. §§ 5G1.3 and 5K2.23

As discussed in our primer, the Sentencing Guidelines require the federal
judge to impose concurrent sentences in certain circumstances, and to adjust or
depart downwards from the intended federal sentence in order to achieve full
concurrency. This adjustment and departure power includes the power to
sentence below a mandatory minimum, as long as the aggregate sentence
(counting state time) is equal to the mandatory minimum sentence required. The
adjustment or departure is in fact part of the federal sentence - essentially, a
method of rendering the state sentence retroactively concurrent with the federal
time.15 Thus, the clemency application should argue that the state time
represented by the adjustment or departure should count towards the “10-yearsserved” requirement.
To analyze these provisions in cases where the inmate faced dual state and
federal prosecutions:

14 While this memorandum focuses on the interaction between state and federal sentences, it
should be noted that time spent in foreign custody awaiting extradition on the federal charges is
also properly credited towards the federal sentence under 18 U.S.C. § 3585(b).
15 See, e.g., United States v. Ikner, 175 Fed.Appx. 83, 84 (7th Cir. 2006) (“district court may adjust
a defendant's federal sentence to account for time served on related charges so long as the
defendant's total period of incarceration is equal to or greater than the statutory minimum”).

14

•

Determine if the federal court granted an adjustment under
§ 501.3(b) or a departure under §§ 5G1.3(c) or 5K2.23 in the
federal sentence, by reviewing the sentencing transcript and/or the
judgment. If so, the time represented by that adjustment/departure
should count towards the 10-years-served requirement.

•

Determine also if the adjustment/departure was adequate. For
example, under the amended version of §§ 5G1.3(b), effective
November 2014, there is no longer a requirement that the relevant
conduct that was the subject of the state offense operated to
increase the offense level of the federal sentence.

•

If there was no § 5G1.3 adjustment/departure, determine if there
should have been one. In other words, was the state offense,
relevant conduct to the federal one?

•

If a mandatory minimum was involved, determine whether the
federal judge understood his/her power to adjust/depart below the
mandatory minimum to achieve full concurrency under § 5G1.3

•

Finally, consider whether there is a fall-back, catch-all position- Is
there an alternative argument - that without making a formal
§ 5G1.3 adjustment or departure, the court took the state sentence
into account in fashioning the “incremental” punishment, and as
such, the state time should therefore count towards the “10-yearsserved” requirement.

Part IV - State/Federal Interaction and “Lower Sentence” Requirement
In this section, I lay out the key scenarios under which a federal inmate
who has served or faces time in state custody would “by operation of law likely
. • feceive[.] a substantially lower sentence if convicted of the same offense
today.
A.

Documents Required
•
•
•
•
•
•
•

Federal docket sheet
BOP sentence computation data
Inmate’s NCIC report (rap sheet)
Presentence Report
Transcript of federal sentencing hearing
Judgment and SOR in federal case
State Judgment

D.O.J. Press Release, April 23, 2014, available at http,7/www .iustice.gov/opa/pr/2014/April/14dag-419.html.

1 =;

j

I

•

Transcript in state sentencing proceeding

B. State Time and “Lower-if-Sentenced-Today” Requirement
1.

Concurrency With Anticipated State Sentence Under Setser

' If an inmate anticipated a state sentence at the time of his federal sentence,
and the federal court was either silent on the issue of concurrency or expressly
indicated its understanding that concurrent sentencing was not available, such
inmate may face a lower aggregate sentence today as a result of the Supreme .
Court’s ruling in Setser v. United States, 132 S.Ct. 1463 (2013), and the revisions
to U.S.S.G. § 5G1.3, to take effect November 1, 2014. Under Setser, the federal
judge is now permitted to order a federal sentence concurrent to a yet-to-beimposed state sentence. Indeed, under the revised version of § 5G1.3, effective
November 1, 2014, the judge is reqinred to order a federal sentence concurrent
with an anticipated state sentence where the state offense is relevant conduct to
the federal offense.
Accordingly, if the inmate was sentenced in a federal case prior to a
sentencing in a state case, proceed as follows:
•

Determine from the sentencing transcript and/or judgment the
federal judge’s ruling, if any, on whether the federal sentence
would run concurrent or consecutive to the anticipated state
sentence.

•

Determine if the state offense was relevant conduct to the federal
offense. If it was, and the federal judge did not order the federal
sentence to run concurrent to the state sentence, the clemency
application should contain an argument that under the revised
version of § 5G1.3 (effective November 1, 2014), the federal
judge was required to run the federal sentence concurrent to the
state sentence.

•

If the state offense was not relevant conduct and the federal
judge believed his/her hands tied on the issue of ordering the
federal sentence concurrent to the state one, the clemency
application should contain an argument that under Setser, the
court would likely have ordered the federal sentence concurrent
to the anticipated state sentence.

•

If the state offense was not relevant conduct and the federal
judge was silent on the issue of ordering the federal sentence
concurrent to the state one, scour the record for any indication
that had the federal judge addressed the issue, he/she would have
ordered the federal sentence concurrent to the anticipated state

16

one.17 To the extent possible, the clemency application should
contain an argument that under Setser, the court would likely
have ordered the federal sentence concurrent to the anticipated
state sentence.
2.

Addressing “De Facto” Consecutive Sentences Where State Court
Ordered Concurrency

As noted in our primer, in some cases involving state and federal
sentences, the federal court was silent and/or deferred the issue of concurrency,
while the state court ordered the state sentence concurrent to the federal one. In
these instances, and where state custody was primary, the BOP has often created
de facto consecutive sentences - refusing to grant nunc pro tunc designations
when the inmate is transferred to federal custody upon the completion of the state
sentence. This position is contrary to Setser, in which the Court indicated it
would be disrespectful of the state’s sovereignty for the BOP to decide after the
state court has expressly decided to run its sentence concurrently and in the
absence of contrary intent on the part of the federal judge, not to credit the state
time served against the federal sentence. Id. 132 S.Ct. at 1471.
Accordingly, in cases where (a) the inmate spent time in state custody
prior to his transfer to federal custody; (b) the state court ordered its sentence
concurrent with the federal one and the federal court was silent on the issue or
deferred the issue to the state court; and (c) the BOP did not grant the inmate a
nunc pro tunc designation, the clemency application should contain an argument
that, under Setser, the state time should be credited towards the federal sentence.
As such, the inmate’s aggregate sentence would be lower if sentenced today.
3.

Changes in § 5G1.3 Adjustments/Departures

An inmate who at the time of his federal sentence was serving or had
served a state sentence for an offense that was relevant conduct to the federal
offence may face a shorter sentence today.
U.S.S.G. § 5G1.3(b), the guideline governing mandatory adjustments to
achieve concurrency with state offenses that are relevant conduct to the federal
one, has undergone several revisions over the years. Most notably, for 12 years, it
required that an adjustment was only authorized if the state offense increased the
inmate’s base offense level. This requirement is not included in the iteration that
takes effect November 1, 2014. In addition, several circuits have held over the
years that in implementing U.S.S.G. § 5G1.3(b), the sentencing judge may impose
a sentence below a mandatory minimum sentence.18 Also, in 2003, the
Sentencing Commission added § 5K2.23, authorizing downward departures where
17 For example, the federal judge sentenced the inmate to the lowest possible sentence available, or
granted the inmate a substantial downward departure from the applicable guideline range.
18 See cases cited in n.7 supra.

17

a defendant had completed serving a state sentence that would otherwise have
entitled him to an adjustment under§ 5.G1.3.
Accordingly, if at the time of the federal sentence, the inmate was serving
or had served a state sentence that was relevant conduct to the federal sentence,
proceed as follows:

4.

•

Determine the version of § 5G1.3(b) in effect at the time of the
inmate’s sentencing and compare it to the version that will be
effective November 1, 2014. If the latter produces, or could have
produced, a lower sentence, the clemency application should
contain an argument that the federal judge would have imposed a
lower sentence under the newly-amended § 5G 1.3(b).

•

If the inmate was subject to a mandatory minimum, and the federal
judge did not adjust below the mandatory minimum to achieve
concurrency under § 5G1.3(b), the clemency application should
contain an argument that under current precedent, the federal judge
is empowered to adjust below the mandatory minimum to achieve
concurrency, and that if imposing the sentence today, would
impose a lower sentence on this basis.

•

If the federal sentence was imposed prior to 2003, and, at the time,
the inmate had completed the state sentence for the relevant
conduct, the clemency application should contain an argument that
under §5K2.23, the inmate would likely receive a shorter sentence
today, because the sentencing judge is now empowered to take the
discharged sentence into account.
Federal Judge Would Likely Not Have Followed Guideline
Mandate of Consecutive Sentencing Under Booker

As noted in our primer, U.S.S.G. § 5G1.3(a) mandates consecutive
sentencing where the defendant committed the federal offense while serving, or
just before commencing, another sentence. This mandate is now advisory. See
Rainer, 314 Fed.Appx. at 847. Thus, if the defendant was sentenced prior to
Booker and was subject to consecutive sentencing under § 5G1.3(a), analyze the
sentencing transcript and/or judgment for evidence that with the benefit of
Booker, the sentencing judge would have ordered the federal sentence concurrent
or partially concurrent to the state sentence. The clemency application should
then contain an argument that the inmate would likely receive a shorter aggregate
sentence today, because the sentencing judge is now empowered to sentence the
federal sentence concurrent to the state sentence.

18

5.

Good Time Credits

As noted in our primer section, when a court adjusts or departs downward
under § 5G1.3 to achieve concurrency with a state sentence, the BOP will only
award good time credit on the adjusted sentence, not on the full sentence. The
government only recently conceded in the course of litigating Lopez and
Schleining that the sentencing court has the discretion to grant a downward
variance based on the good time credit not awarded.
Accordingly, where an inmate has received an adjustment or departure
under § 5G 1.3 or a departure under § 5K2.23, and that adjustment or departure
did not reflect good time credit (which it most likely did not), the clemency
petition should contain an argument that if sentenced today, the federal judge
would have granted an additional variance to account for lost good time credit.
Before making this argument, make sure the inmate’s conduct in state custody
would have earned good time credits.
6.

Mistakes Made at Federal Sentencing

In reviewing the materials related to the federal sentencing, it is possible
that the parties or judge failed to address an issue relating to sentencing credit or
concurrency that could have been made under then prevailing law, or that the
BOP failed to give credit for the inmate’s service of state time that should have
been credited towards the federal sentence. While no intervening change in law
occurred, these omissions or mistakes should nonetheless be outlined in the
clemency application as grounds for concluding that the inmate’s sentence would
be lower if sentenced today. In particular, if the error at issue was made by
defense counsel, the argument may be made that defense counsel was ineffective
under the standards recently-enunciated in Lafler v. Cooper, 132S.Ct. 1376
(2012) and Missouri v. Frye, 132 S.Ct. 1399 (2012), which held that a defendant
had a right to effective assistance of counsel during plea bargaining.

19

